No.
G3

IN THE
SUPREME COURT OF THE UNITED STATES
(
{

v’.i
.

* <

H

' { \ i i

L CJ u U V • *J

HAZHAR A. SAYED

— PETITIONER—

filed.
SEP 19 2021

(Your Name)
vs.
LT. PAGE VIRGINIA: CAPT.
MICHAEL TIDWELL; & SGT.
ROBERT HRADECKY

u.s.

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

United States Court of Appeals for the Tenth Circuit
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Hazhar A. Sayed, #133608

(Your Name)
Sterling Correctional Facility
P.O. Box #6000
(Address)
Sterling, CO. 80751

(City, State, Zip Code)
Unknown

(Phone Number)

RECEIVED
SEP 2 8 2021

QUESTION(S) PRESENTED

1) Do the mandates stated by this Court in Ross v. Rlake, 136 S.Ct.
1850 (2016) require the U.S. Court of Appeals for the Tenth
Circuit and U.S. Dist. Court of Colorado to find that there is
no need for a plaintiff to seek relief labeled as clearly
unavailable in a prison's administrative remedies prior to filing
suit under 42 U.S.C. § 1983?

i.

LIST OF PARTIES

p] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

ii.

TABLE OF CONTENTS

OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4

REASONS FOR GRANTING THE WRIT

5-9

CONCLUSION

10

INDEX TO APPENDICES

APPENDIX A....U.S. Court of Appeals for the Tenth Circuit opinion.

APPENDIX B....U.S. District Court of Colorado opinion.

APPENDIX C

orJer o-f -W U-S. Coitf+ of
"TeyrWv C-ICe-Uft
fiheoirfjp*

APPENDIX D

APPENDIX E

APPENDIX F

iii.

-fcr-4}7e

TABLE OF AUTHORITIES CITED

CASES

PAGE NUMBER

Ross v. Blake, 136 S. Ct. 1850 (2016)

4, 5, 6, 8, 9

Valentine v. Collier, 141 S. Ct. 57 (2020)

6

Booth v. Churner, 532 U.S. 731 (2001)

6

Porter v. Nussle, 534 U.S. 516 (2002)

5

STATUTES AND RULES
42 U.S.C. § 1983

5

42 U.S.C. § 1997e(a)

5, 6, 8

Colorado Dept, of Corrections, Admin. Reg. 850-04

7, 8, 9

OTHER

iv.

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

[x] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix__
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
DQ is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

B

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
PO is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix
to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the _
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

JURISDICTION

[x] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was April 13, 2021
[<0 No petition for rehearing was timely filed in my case.
[)(j A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:
£Ofkl____, and a copy of the
order denying rehearing appears at Appendix_Q.__
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date) on
to and including _
(date)
in Application No.
A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
______________________, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

42 U.S.C. § 1983:
"Every person who, under the color of any statute, ordinance, regulation,
custom, or usage, of any State or Territory or the District of Coluiribia,
subjects, or causes to be subjected, any citizen of the United States
or other person within the jurisdiction thereof to the deprivation
of any rights, privileges, or immunities secured by the Constitution and
laws, shall be liable to the party injured in an action at law, suit
in equity, or other proper proceeding for redress, except that in any
action brought against a judicial officer for an act or omission taken
in such officer's official capacity, injunctive relief shall not be
granted unless a declaratory decree was violated or declaratory relief
was unavailable. For the purposes of this section, any Act of Congress
applicable exclusively to the District of Columbia shall be considered
a statute of the District of Columbia."

42 U.S.C. § 1997e(a):
"No action shall be brought with respect to prison conditions under
(42 U.S.C. § 1983)...or other Federal law, by a prisoner confined
in any jail, prison, or other correctional facility until such
administrative remedies as are available are exhausted."

3.

STATEMENT OF THE CASE

This action stems from a retaliatory assault perpetrated against Mr.
Sayed as the result of his filing a grievance against one of the named
Defendants in 2015. The case has a long, tortuous history, however,
the only issue before this Court is whether Mr. Sayed was required
to seek punitive damages or declaratory relief under the Colorado Dept,
of Corrections administrative remedies, when that regulation clearly
prohibits the seeking of such relief? In other words, is a remedy
unavailable under this Court's ruling in Ross v. Blake, 136 S.Ct. 1850
(2016) when a prison's administrative remedies disallow the seeking
of said and the grievance officer finds prisoners have not exhausted
such remedies if they seek this type of relief?

4.

REASONS FOR GRANTING THE PETITION
1) Do the mandates of the U.S. Supreme Court in Ross v. Blake, 136 S.Ct.
1850 (2016) require the U.S. Court of Appeals for the Tenth Circuit and
U.S. Dist. Court of Colorado to find that there is no need for a plaintiff
to seek relief labeled as clearly unavailable in a prison's administrative
remedies prior to filing suit under 42 U.S.C. § 1983?

The Prison Litigation Reform Act, 42 U.S.C. § 1997e(a), requires that: "No
action shall be brought with respect to prison conditions under section 1983
of this title, or any other Federal law, by a prisoner confined in any jail,
prison, or other correctional facility until such administrative remedies
as are available are exhausted." Id, see also, Ross v. Blake, 136 S.Ct. 1850,
1856 (2016). However, in 2002, prior to the issuance of the opinion of this
Court in Ross v. Blake, supra, this Court, as noted by the Tenth Circuit Court
of Appeals in its decision denying Mr. Sayed's appeal, this Court in Porter
v. Nussle, 534 U.S. 516, 524 (2002) that: "Even when a prisoner seeks relief
not available in grievance proceedings, notably money damages, exhaustion
is a prerequisite to suit." Id, see also, Appendix A, pp. 4.

The question presented here is one of whether the edict that § 1997e(a)
continues to require a prisoner to seek "unavailable relief" as defined in
a prison's administrative remedy process is still viable; and/or whether when
prison officials continually state that a prisoner has failed to exhaust his
administrative remedies if he seeks said, should be considered machination?

5.

In further defining the requirements of § 1997e(a), this Court in Ross v.
Blake, supra, found that:

"Under 1997e(a), the exhaustion requirement hinges on the
'availability1 of administrative remedies: An inmate, that
is must exhaust available remedies but need not exhaust
unavailable ones...As we explained in Booth, the ordinary
meaning of the word 'available' is 'capable of use for the
accomplishment of a purpose * and that which is accessible
or may be obtained...Accordingly, an inmate is required
to exhaust those, but only those grievance procedures that
are 'capable of use' to obtain some relief for the action
complained of. t ti
Id, 136 S.Ct. at 1858-59 (internal cite omitted.)

Further, this Court, citing Booth v. Churner, 532 U.S. 731, 738 (2001), found
that an administrative remedy is "unavailable" when it operates as a dead
end," i.e., when a "relief is either unavailable or the responding officers
are unable or consistently unwilling to provide any relief to any inmate
seeking such relief.” See Ross v. Blake, supra, 136 S.Ct at 1859; see also,
Valentine v. Collier, 141 S.Ct. 57 . 55T( 2Q20)(mfntina Ross supra, and
supporting the fact that "even if an internal process is on the books it
is not available if as a practical matter it is not capable of use to obtain
relief." (internal quotation marks omitted.))

Finally, in Ross, this Court held that: "when prison administrators thwart
inmates from taking advantage of a grievance process through machination,

6.

misrepresentation, or intimidation," administrative remedies also become
unavailable, thereby eliminating a prisoner's need for exhaustion of said
prior to bringing his suit. Id, 136 S.Ct. at 1859.

Mr. Sayed is housed in the Colorado Dept, of Corrections, whose administrative
remedy process is governed by the C.D.O.C.'s administrative regulation 850-04.
In relevant part, the C.D.O.C.'s Admin. Reg. 850-04(111)(C) defines available
remedies as:

"Remedy: A meaningful response, action or redress requested by
the offender grievant at step 1., 2 or 3 level, which may include
modification of policy, restoration or restitution for property,
or assurance that abuse will not reoccur. DOC employee, contract
worker, or volunteer discipline/reprimand, damages for pain and
suffering, and exemplary or punitive damages are not remedies
available to offenders."
Id, (emphasis added.)

Given this clear definition set forth in this administrative regulation,
Mr. Sayed did not seek such damages in his initial grievances prior to filing
his § 1983 action for being retaliated against. This is true also because
he was aware that others who had sought such damages were repeatedly told
by the C.D.O.C.’s Step III grievance officer (the top grievance officer in
the C.D.O.C.) that they had "not exhausted" their administrative remedies
in the C.D.O.C.'s grievance procedure because they sought relief that was
"unavailable." See attached exhibit.

7.

The reasoning utilized by the C.D.O.C.'s Step III grievance officer was
that the inmate grieving the issue had failed to follow the grievance
procedures as he sought relief that was "unavailable." See attached exhibit.
In other words, if a prisoner seeks relief defined as "unavailable" in
the C.D.O.C.'s grievance procedure, according to the C.D.O.C.'s top
official, he has failed to exhaust his administrative remedies as required
by § 1997e(a) and cannot sue.

If this isn't true, then isn’t the C.D.O.C.'s statement to the prisoner
misleading and shouldn't that be considered machination as defined under
Ross v. Blake supra?

Respectfully, the Tenth Circuit Court of Appeals in it's Order denying
Mr. Sayed relief found otherwise when it held:

"Regarding that May 8 grievance, Sayed offers two arguments,
both of which are unavailing. First, he contends it was
unnecessary to seek the same relief in his amended complaint
because the grievance process permits, but does not require
the relief they seek. But the governing regulatory provision,
Colorado Department of Corrections (CDOC) Administrative
Regulation (Admin. Reg.) 850-04 § IV.D.6, expressly states
that a grievance 'shall address only one problem or complaint
and include a description of the relief requested." R.Vol. 1
at 285. This provision plainly requires an inmate to include
in the grievance a description of the relief requested.
Indeed, the next section of the regulation, § IV.D.7, states
that if an inmate fails to request a remedy, the remedy is
waived..."

See Appendix A, pp. 5 (emphasis in original.)
8.

So the question is one of whether an inmate is supposed to believe the
clear provisions of 850-04(111)(c),

and the statements of the Step III

grievance officer, or whether the more general provision of A.R. 850-04
apply. Anyway you look at it, Mr. Sayed was clearly misled by grievance
officials and thus the U.S. Court of Appeals for the Tenth Circuit's
decision in this matter is incorrect, as it failed to follow the provisions
set forth by this Court in Ross v. Blake supra. Moreover, the Tenth
Circuit's statement that C.D.O.C.'s Admin. Reg. 850-04 "permits, but does
not require the relief they seek," i.e. exemplary or punitive damages
is incorrect, as Admin. Reg. 850-04(111)(c) specifically prohibits the
seeking of such relief.

There is a clear miscarriage of justice that has occurred here given the
fact that Mr. Sayed was assaulted through a retaliatory action by prison
officials and now has no avenue within which to seek relief, as Defendants
raised in their response to his amended complaint, a failure to exhaust
defense, claiming he failed to seek damages which were "unavailable" to
him through the prison's grievance process.

Mr. Sayed thus moves this Court most respectfully to grant certiorari
on this claim and correct this injustice.

9.

J

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

10.

